Resp. 1a
APPENDIX A
ATTORNEYS AT LAW
333 BUSH STREET, 30TH FLOOR SAN FRANCISCO,
CALIFORNIA 94104-2834
www.sedgwicklaw.com 415.781.7900 phone
415.781.2635 fax
Sedgwick LLP
Marlin J. O’Leary,
martin.oleary@sedgwicklaw.com
direct (415) 627-1463
Kimberly K. Jackanich
kimberly.jackanich@sedgwicklaw.com
(415)627-3473
May 29, 2015
Via E-mail and Certified Mail/Return Receipt Requested
Ron Hutcheson
GATEWAY HOSPITALITY GROUP, INC.
8921 Canyon Falls Blvd. Ste. 140
Twinsburg, OH 44087-1976
(rhutcheson@ghghotels.net)
Re: Pam Walter, et al. v. Hilton Garden Inns
Franchise, LLC, et al.
Insured:
GATEWAY HOSPITALITY
GROUP, INC.
Policy No.: PHSD965996
Claim No.: 880619
Our File No.: 00875-012283
Dear Mr. Hutcheson:
We represent Philadelphia Indemnity Insurance
Company (“Philadelphia”). This matter involves a class

Resp. 2a
action lawsuit ﬁled in Montana State Court against
Hilton Garden Inns Franchise, LLC; Gateway Hospitality Group, Inc.; Hilton Garden Inn Bozeman; Western
Hospitality Group, LC [sic] dba Hilton Garden Inn of
Missoula; JWT Hospitality Group Billings, LLC dba
Hilton Garden Inn Billings; Kalispell Hotel LLC dba
Hilton Garden Inn Kalispell; and all other Gateway
Hospitality Group managed hotels in Montana (collectively “the Insureds”). The lawsuit is styled Pam Walter,
et al. v. Hilton Garden Inns Franchise, LLC, et al., Montana Fourth Judicial District Court, Missoula County
Case No. DV-15-196 (“the Walter Class Action”). Claimants are past and present non-management server
employees of the Hilton Garden Inns in Montana that
claim they were wrongfully denied service charges for
their services at banquets.
The purpose of this letter is to advise the Insureds
of Philadelphia’s conclusions regarding coverage under
Cover-Pro Policy No. PHSD965996. Coverage under
any other Philadelphia policy will be addressed under
separate cover. Please ensure that all appropriate persons are notiﬁed of the contents of this letter.
After careful consideration, Philadelphia is constrained to conclude that coverage cannot be afforded
for the Walter Class Action as the Claim arises out of
the Insureds’ Employment Practices, which are precluded from coverage under the Policy. Additional policy exclusions and conditions operate to limit or
otherwise preclude coverage as outlined below.

Resp. 3a
After consideration of the issues and Policy provisions discussed herein, should you or any Insured believe that Philadelphia’s conclusions are incorrect, we
invite any additional information or documentation
which you believe Philadelphia might not have considered and which might cause it to alter its analysis.
POLICY INFORMATION
Philadelphia issued Cover-Pro Policy No.
PHSD965996 to Gateway Hospitality Group, Inc. for
the Policy Period of August 16, 2014 to August 16,
2015. The Policy includes Professional Liability Insurance Coverage. The Policy has a Limit of Liability of
$1,000,000, subject to a $5,000 Deductible for each
Claim. The maximum aggregate liability for all Damages and Claim Expenses is the Limit of Liability in
the Declarations. Philadelphia has the right and duty
to defend Claims.
FACTUAL SUMMARY
The following factual summary is derived from
Philadelphia’s review of the complaint and information and documents received from the Insured. By
referring to the allegations against the Insured in regards to coverage, Philadelphia does not intend to suggest or imply that the allegations are true.
On March 24, 2015, the Insureds were served
with a class action complaint ﬁled in Montana State
Court by Claimants Pam Walter, Jimmy Smith, Lisa

Resp. 4a
Barnhill, Zach Winn, Windy Carlson, Denise Pyron, and
Ashley-O’Connor (collectively “Claimants”). The lawsuit
was filed against Hilton Garden Inns Franchise, LLC;
Gateway Hospitality Group, Inc.; Hilton Garden Inn
Bozeman; Western Hospitality Group, LC [sic] dba
Hilton Garden Inn of Missoula; JWT Hospitality
Group Billings, LLC dba Hilton Garden Inn Billings;
Kalispell Hotel LLC dba Hilton Garden Inn Kalispell;
and all other Gateway Hospitality Group managed hotels in Montana (collectively “the Insureds”). The lawsuit is styled Pam Walter, et al. v. Hilton Garden Inns
Franchise, LLC, et al., Montana Fourth Judicial District Court, Missoula County Case No. DV-15-196 (“the
Walter Class Action”). Claimants are past and present
non-management server employees of the Hilton Garden Inns in Montana that claim they were wrongfully
denied service charges for their services at banquets.
The Walter Class Action is brought on behalf of the
following proposed class:
All past and present non-management server
employees of the Hilton Garden Inn who provided services at any time within the applicable statute of limitations period prior to
commencement of this action and did not receive a portion of the service charge as tip income in connection with banquet activities at
the hotel for which a service charge or gratuity charge was imposed.
The Complaint “seeks to recover lost wages that
Defendants wrongfully withheld from Plaintiffs and
members of the Class in violation of Montana

Resp. 5a
statutory and common law, including Montana Code
Annotated §§ 39-3-201, et seq. and §30-14-201, et seq.”
The Complaint alleges that for all events hosted by
the Hilton Garden Inn hotels, a ﬂat rate service charge
of 15-18% was charged to the consumer for food and
beverage. The Complaint alleges that when Gateway
Hospitality Group assumed the management responsibilities for the Hilton Garden Inn Hotels, they implemented a new policy in which the server employees
were not compensated their rightful portion of the gratuity charge, which was called a “service charge” or
“set-up fee”. Instead, the Complaint alleges that the
Hilton Garden Inn hotels increased the rate to 18-20%
and retained the money for its own beneﬁt. The Complaint further alleges that the purchasers of banquet
services at the Hilton Garden Inn hotels did not receive a clear disclosure that the service charge was not
being used to pay the server employee tips and/or
wages. Rather, the Complaint alleges that the Insureds
routinely represented to customers that the gratuity
would be fully distributed to the servers. As a result,
the Complaint alleges that the Insureds “have repeatedly and willfully failed to pay non-management
server employees’ wages due.”
The Complaint further alleges that the Insureds
have been unjustly enriched by their conduct and that
their policies constitute unfair methods of competition.
The Complaint also alleges that the Insureds have
conferred the benefit of non-management server employees without offering compensation due in circumstances where compensation is reasonably expected

Resp. 6a
and required, and that the Insureds have wrongfully
converted Plaintiffs’ earned wages. By lowering their
overall costs and retaining tip income, the Complaint
alleges that the Insureds have been able to offer lower
prices than their competitors, giving them an unfair
and illegal business advantage over legally compliant
businesses. The Complaint alleges that the Insureds
acted with “actual fraud or actual malice” and that
they “deliberately proceeded to act with indifference to
or with conscious disregard of the high probability of
injury to the Plaintiffs by their violation of Montana
law and the rights of Plaintiff employees.”
The Complaint includes causes of action for
(1) Violation of Montana Code Annotated Title 39,
Chapter 3; (2) Unjust enrichment; (3) Conversion;
(4) Unfair Trade Practices; and (5) Punitive Damages.
The Complaint seeks recovery of (1) class certiﬁcation;
(2) declaratory and injunctive relief; (3) compensatory
damages to Plaintiffs in an amount of 110% of the
wages due and unpaid; (4) treble damages; (5) attorney
fees and reasonable costs; (6) restitution; and (7) punitive damages.
The Insureds provided Philadelphia with notice of
the possibility of the Walter Class Action on or about
March 3, 2015.

Resp. 7a
COVERAGE ANALYSIS
1.

Insuring Agreement / Definition of Claim

The Insuring Agreement for the Policy provides
that:
A.

Professional Liability Coverage

We shall pay on your behalf all sums, not
exceeding the Limits of Liability and in
excess of the applicable Deductible set
forth in the Declarations, for which you
shall become legally obligated to pay as
damages resulting from any claim ﬁrst
made against you during the policy period or any subsequent extended reporting period arising out of a wrongful act
committed after the retroactive date
stated in Item 6. of the Declarations and
prior to the end of the policy period.
Section II.B. of the Policy provides that Claim
means:
A demand received by you for money or services, including the service of suit or institution of arbitration proceedings involving you
arising from any alleged wrongful act. Claim
shall also include any request to toll the statute of limitations relating to a potential claim
involving an alleged wrongful act.
Section II.P. of the Policy provides that Wrongful
Act means:
A negligent act, error, or omission committed
or alleged to have been committed by you or

Resp. 8a
any person for whom you are legally responsible in the rendering of professional services.
Wrongful Act shall include personal injury
arising out of the rendering of professional
services.
Section II.K. of the Policy provides that Professional Services means services rendered to others for a
fee solely in the conduct of your profession as stated in
Item 9. of the Declarations. Item 9. of the Declarations
defines the Insured’s profession as “Hotel/Motel Manager.” Pursuant to the Hotel Manager Pro Pak Advantage Endorsement, Hotel/Motel Manager means:
The provision of management services over
hotel operations such as stafﬁng, housekeeping, reservations, coordination of building
maintenance, food services, and coordination
or recreational activities for others, for a fee.
The Walter Class Action includes allegations of deliberate, intentional conduct by the Insureds. Speciﬁcally, the Complaint in the Walter Class Action alleges
that the Insureds deliberately retained the service
charges for banquets and refused to provide these
amounts as compensation to the non-management
server employees. Philadelphia must respectfully reserve the right to disclaim coverage to the extent that
the Walter Class Action does not allege a Wrongful Act
as deﬁned in the Policy or does not arise out of the Insureds’ profession as deﬁned in the Hotel Manager Pro
Pak Advantage Endorsement.

Resp. 9a
For the reasons outlined below, Philadelphia has
determined that coverage cannot be afforded for the
Walter Class Action.
2.

Employment Practices Exclusion

Section III.K. of the Policy provides that the Policy
does not apply to any Claim or Claim Expenses:
K. alleging, arising out of, resulting from,
based upon or in consequence of, directly or
indirectly, any employment practices or
discrimination against any person or entity
on any basis, including but not limited to:
race, creed, color, religion, ethnic background,
national origin, age, handicap, disability, sex,
sexual orientation or pregnancy.
The Walter Class Action arises out of the Insureds’ alleged failure to properly compensate its nonmanagement server employees with service charges
from banquets. The Complaint speciﬁcally alleges that
the Insureds instituted an employment policy by which
the Insureds retained the service charges received rather than distributing these amounts as compensation
to their employees. Because the Walter Class Action
arises solely out of the Insureds’ employment policies
and compensation of their employees, Philadelphia is
constrained to conclude that the Walter Class Action
arises out of the Insureds’ employment practices such
as to be precluded from coverage by operation of Exclusion K. Accordingly, Philadelphia must respectfully
disclaim coverage and advise the Insureds that no policy beneﬁts can be afforded.

Resp. 10a
3.

Other Potentially Applicable Limitations
and Exclusions

Although Philadelphia believes that the foregoing
Policy provisions are dispositive of coverage for the
Walter Class Action, Philadelphia notes that there are
additional Policy provisions which would also exclude
or limit coverage for this matter.
a. Fraud/Unfair Advantage Exclusion
Section III.A. of the Policy provides that the Policy
does not apply to any Claim or Claim Expenses:
A. Arising out of, resulting from, based upon
or in consequence of, any dishonest,
fraudulent, criminal or malicious act, error or omission, or any intentional or
knowing violation of the law, or gaining of
any proﬁt or advantage to which you are
not legally entitled; however, we will defend suits alleging the foregoing until
there is a judgment, ﬁnal adjudication,
adverse admission, plea nolo contendere
or no contest or ﬁnding of fact against you
as to such conduct.
The Complaint alleges that the Insureds wrongfully converted Claimants’ Earned Wages and were unjustly enriched by their wrongful retention of service
charges for banquets. The Complaint further alleges
that the Insureds acted with actual fraud or malice in
committing these actions. Based upon these allegations, Philadelphia must respectfully reserve all rights
under Exclusion A. Additionally, Philadelphia must

Resp. 11a
respectfully reserve all rights with regard to the insurability of deliberate or malicious conduct by the Insureds.
b. The Non-Monetary Relief Exclusion
Section III.C. of the Policy provides that the Policy
does not apply to any Claim or Claim Expenses:
C. arising out of any costs of corrections,
costs of complying with non-pecuniary relief, ﬁnes or penalties imposed by law or
other matters which may be deemed uninsurable under the law pursuant to
which this policy may be construed.
The Walter Class Action seeks recovery of various
forms of non-pecuniary relief, including declaratory
and injunctive relief. Further, the Walter Class Action
seeks recovery of punitive damages, restitution, and
treble damages, which may be uninsurable under applicable law. Philadelphia reserves all rights to disclaim coverage for any non-pecuniary relief, ﬁnes,
penalties, or other recovery that is precluded from coverage under Exclusion C or is otherwise uninsurable
under applicable law.
c. Other Insurance
Section V.N. of the Policy provides:
This insurance is excess over any other
valid and collectable insurance available
to you except as respects such insurance

Resp. 12a
written to apply speciﬁcally in excess of
this insurance.
Further, Section II.C. of the Policy provides that
Claim Expenses shall not include, in pertinent part:
a.

Any amounts incurred in defense of any
claim for which any other insurer has a
duty to defend, regardless of whether or
not such other insurer undertakes such
duty

Philadelphia understands that the Insureds reported the Walter Class Action to its subsequent Employment Practices Carrier. Accordingly, Philadelphia
must respectfully reserve all rights with respect to
other insurance.
d. The Definition of Claim Expenses and
Damages
Section II.2. of the Policy provides that Claim
Expenses means:
Fees charged by any lawyer designated by us
and all other fees, costs, and expenses resulting from the investigation, adjustment, defense, and appeal of a claim, if incurred by us.
Claim Expenses shall also include:
1.

Premiums on bonds to release attachments and appeal bonds, limited to that
portion of such bonds that does not exceed
the Limits of Liability of this policy, but
without any obligation by us to apply for
or furnish such bonds;

Resp. 13a
2.

Costs taxed against you in any suit except
for any contempt citations;

3.

Interest accruing after the entry of judgment, but only for that portion of the
judgment which does not exceed the applicable Limits of Liability, and only until
we have tendered to the court or paid to
you our portion of such judgment as does
not exceed our Limit of Liability thereon;
and

4.

Reasonable expenses incurred by you at
our request in assisting the investigation
and defense of any claim, other than loss
of earnings.

Claim Expenses shall not include:
a.

Any amounts incurred in defense of any
claim for which any other insurer has a
duty to defend, regardless of whether or
not such other insurer undertakes such
duty; or

b.

Salaries, wages, overhead or beneﬁt expenses associated with any insured except as speciﬁed in Section I. INSURING
AGREEMENTS, Paragraph C. above; or

c.

Salaries, wages, overhead or beneﬁt expenses associated with your employees.

Section II.E. of the Policy provides that Damages
means:
A monetary judgment, award or settlement,
including punitive damages or exemplary

Resp. 14a
damages where insurable by law, but does not
include the multiple part of multiplied damages, ﬁnes, taxes, sanctions or statutory penalties, including those based upon legal fees
whether imposed by law, court or otherwise.
The Complaint seeks recovery of treble damages,
which are speciﬁcally excluded from the deﬁnition of
Damages. Further, the Complaint seeks recovery of punitive damages and restitution, which may be uninsurable as a matter of law. Philadelphia reserves the right
to disclaim coverage for any recovery sought in the
Walter Class Action that does not constitute Damages
as deﬁned by the Policy or is otherwise uninsurable as
a matter of law.
e. The Fee/Charges Dispute Exclusion
Section III.O. of the Policy provides that the Policy
does not apply to any Claim or Claim Expenses:
O. arising out of, resulting from, based upon
or in consequence of, directly or indirectly, any
disputes involving your fees or charges.
Based on the allegations in the Walter Class Action, Philadelphia respectfully reserves all rights under Exclusion E.
f.

The Knowledge of Wrongful Act Exclusion

The Policy includes the Hotel Manager Pro Pak
Advantage Endorsement, which provides that the

Resp. 15a
Policy does not apply to any Claim or Claim Expenses
arising out of:
R. Any wrongful act committed with the
knowledge that it was a wrongful act
Based on the allegations in the Walter Class Action, Philadelphia respectfully reserves all rights under Exclusion R.
RESERVATION OF RIGHTS
Due to the dispositive nature of the issues cited
above, Philadelphia has not addressed all potentially
applicable limitations to coverage under the Policy. The
respective rights and obligations of Philadelphia and
the Insureds should be considered fully reserved under
the Policy and applicable law. Philadelphia’s evaluation is based on presently known facts and circumstances; its investigation is ongoing and speciﬁcation
herein of certain coverage issues and reservations is
not a waiver of other coverage rights or defenses which
may exist in Philadelphia’s favor or which may arise in
the future. Philadelphia reserves the right to assert
additional coverage or legal defenses as they may be
ascertained.
CONCLUSION
For the reasons expressed herein, Philadelphia
must respectfully conclude that coverage is not available for the Walter Class Action under the Policy.

Resp. 16a
After consideration of the issues and Policy provisions discussed herein, should you believe that Philadelphia’s conclusions are incorrect, we invite any
additional information or documentation which you
believe Philadelphia might not have considered and
which might cause it to alter its analysis. Philadelphia
will promptly consider any additional information or
documentation provided.
If you have any questions with regard to this
matter, please contact us.
Very truly yours,
SEDGWICK LLP
By /s/ Kimberly K. Jackanich
Martin J. O’Leary
Kimberly K. Jackanich
MJO/KKJ
cc: June Zimmer, United Agencies, Inc.
(via e-mail only, (jzimmer@uainc.com)

Resp. 17a
APPENDIX B
Thomas A. Marra
MARRA, EVENSON & LEVINE, P.C.
2 Railroad Square, Suite C
P.O. Box 1525
Great Falls, Montana 59403-1525
Telephone: (406) 268-1000; Facsimile:(406) 761-2610
Direct e-mail: tmarra@marralawﬁrm.com
(Attorneys for Philadelphia Indemnity Insurance
Company)
MONTANA FOURTH JUDICIAL DISTRICT
COURT, MISSOULA COUNTY
GATEWAY HOSPITALITY
)
GROUP INC.; WESTERN
)
HOSPITALITY GROUP, LP
)
d/b/a HILTON GARDEN INN
) Cause No. DV-18MISSOULA; KALISPELL
) 1357 Dept. 2
HOTEL, LLC d/b/a HILTON
) PHILADELPHIA
GARDEN INN KALISPELL;
) INDEMNITY INBOZEMAN LODGING INVES- ) SURANCE COMTORS, LLC d/b/a HILTON GAR- ) PANY’S BRIEF
DEN INN BOZEMAN; JWT
) IN SUPPORT
HOSPITALITY GROUP, LLC
) OF MOTION TO
d/b/a HILTON GARDEN INN
) DISMISS PLAINBILLINGS; and JOHN DOES 1-5, ) TIFFS’ FIRST
) AMENDED COMPlaintiffs
) PLAINT OR,
v.
) IN THE ALTERPHILADELPHIA INDEMNITY ) NATIVE, TO
INSURANCE COMPANY; and ) TRANSFER
JOHN DOES I-X,
) BASED UPON
) FORUM NON
Defendants.
) CONVENIENS

Resp. 18a
Pursuant to M.R. Civ. P. 12(b)(6), 12(b)(3), 12(b)(2),
12(b)(1), and M.C.A. § 25-2-201, Philadelphia Indemnity Insurance Company (“Philadelphia”), submits this
brief in support of its Motion to Dismiss Plaintiffs’ First
Amended Complaint or, in the Alternative to Transfer
Based upon Forum Non Conveniens (“Complaint”). The
Complaint, as ﬁled by Gateway Hospitality Group, Inc.
(“Gateway”), Western Hospitality Group, LP d/b/a
Hilton Garden Inn Missoula (“HGI Missoula”); Kalispell Hotel, LLC d/b/a Hilton Garden Inn Kalispell
(“HGI Kalispell”); Bozeman Lodging Investors, LLC
d/b/a Hilton Garden Inn Bozeman (“HGI Bozeman”);and
JWT Hospitality Group LLC d/b/a Hilton Garden Inn
Billings (“HGI Billings”) (“Plaintiffs”), should be dismissed on the following grounds:
I.

INTRODUCTION

Plaintiffs’ Complaint seeks a declaration that
Philadelphia owed a defense and indemnity in connection with a matter captioned Pam Walter, et al. v. Gateway Hospitality Group, Inc., et al., Fourth Judicial
District Court, Missoula County, DV 15-196 (the “Walter class action”) under an insurance policy (“Policy”)
issued by Philadelphia to Gateway, an Ohio corporation. (Compl. at ¶¶ 1-2.) The Complaint further alleges
that Philadelphia breached its contract when it failed
to defend and indemnify Plaintiffs. (Compl. at ¶ 63 et

Resp. 19a
seq.) The Complaint alleges that the “HGI Entities”1
are insureds under the Policy. (Compl. at ¶¶20-22.)
The reasons for dismissing Plaintiffs’ Complaint
are: First, this Court lacks personal jurisdiction over
Philadelphia, as set forth in the U.S. Supreme Court’s
2017 decision of BNSF Ry. v. Tyrrell, 137 S. Ct. 1549,
1558 (2017), which overturned the Montana Supreme
Court on this issue. The Complaint states that: (a)
Gateway entered into an insurance policy with a Pennsylvania corporation, Philadelphia (Compl. ¶¶ 1, 9, 13);
(b) Plaintiffs were sued by their employees in the
Walter class action in Montana (Compl. ¶ 34); and (c)
Plaintiffs were informed by Philadelphia the Policy
provided no coverage for the class action lawsuit
(Compl. ¶¶ 47-48). Plaintiffs do not and cannot allege
their insurance Policy was formed in Montana or that
Philadelphia performed under the policy in Montana.
While Plaintiffs allege that Philadelphia expected (or
should have expected) to insure a risk in Montana, this
is contradicted by the actual Policy documents attached to the Complaint. Accordingly, Plaintiffs’ claims
must be dismissed due to this Court’s lack of personal
jurisdiction over Philadelphia.
Next, the HGI Entities do not have standing to
bring the claims they assert in the Complaint because
they are not insureds under the Policy. Accordingly, as
a matter of law, there is no basis for their claims

1

“HGI Entities” refers to HGI Missoula, HGI Kalispell, HGI
Bozeman and HGI Billings.

Resp. 20a
against Philadelphia. Those claims should be dismissed with prejudice.
Finally, dismissal is appropriate based on the doctrine of forum non conveniens. Forum non conveniens
permits a court to dismiss a case when the court believes the action may be more appropriately and justly
tried elsewhere. M.C.A. § 25-2-201. There are alternative jurisdictions available to Gateway, an Ohio corporation, to address a dispute over an Ohio contract to
which Ohio law applies.
II.

ARGUMENT

A.

The Complaint Fails to State a Claim
Upon Which Relief May Be Granted when
Subject to the Test of M.R.Civ.P.
12(b)(1)(2)(3)(6).
1. Plaintiffs Bear the Burden of Properly
Stating a Claim.

A defendant may move to dismiss based upon a
plaintiff ’s failure to state a claim upon which relief can
be granted. M. R. Civ. P. 12(b)(1), 12(b)(2), 12(b)(3), and
12(b)(6). In order to survive a motion to dismiss
M.R.Civ.P. 8 or Fed.R.Civ.P.8 require Plaintiffs to state
“enough facts to state a claim to relief that is plausible
on its face.” See Bell Atl. Corp. v. Twombly, 550 U.S. 544,
124 S. Ct. 1955, 1959 (2007); M. R. Civ. P. 8(a)(2). A
plaintiffs’ factual allegations must be adequate to raise
a right to relief above the speculative level and must
provide more than labels, conclusions, and a formulaic
recitation of the elements of a cause of action. Id. at

Resp. 21a
1965; Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937,
1950 (2009).
Further, because mere legal conclusions are not
entitled to the assumption of truth, a court may begin
its analysis by disregarding them. Iqbal at 1940. A
court is not bound to accept, as true, legal conclusions
from plaintiffs that are couched as factual allegations.
Id. at 1950 (citing Twombly, 124 S. Ct. at 1955). This
pleading burden is crucial here, since Plaintiffs fail
to allege facts sufﬁcient to show personal jurisdiction,
standing, or that this court is the proper venue to resolve this dispute. Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016) (“standing consists of three elements
. . . at the pleading stage, the plaintiff must 'clearly . . .
allege facts demonstrating' each element”); Swartz v.
KPMG LLP, 476 F.3d 756, 766 (9th Cir. 2007) (Finding
on Rule 12(b)(2) motion that “mere ‘bare bones’ assertions of minimum contacts with the forum or legal conclusions unsupported by speciﬁc factual allegations
will not satisfy a plaintiff ’s pleading burden.”).
2. Plaintiffs Failed To Allege Montana Has
Personal Jurisdiction Over Philadelphia.
Montana applies a two-part analysis to determine
whether a Montana court can exercise personal jurisdiction over a defendant. First, the court determines
whether “personal jurisdiction exists pursuant to M. R.
Civ. P. 4(b)(1). Second, if personal jurisdiction exists
pursuant to M. R. Civ. P. 4(b)(1), [the court] then determine[s] whether exercising personal jurisdiction

Resp. 22a
comports with traditional notions of fair play and substantial justice embodied in the Due Process Clause
of the Fourteenth Amendment.” Buckles v. Cont’l
Res., Inc., 2017 MT 235, ¶11, 388 Mont. 517, 402 P.3d
1213.
(a). It is Plaintiffs’ Burden to Establish Personal Jurisdiction.
Where a defendant moves to dismiss a complaint
for lack of personal jurisdiction, plaintiff bears the
burden of demonstrating jurisdiction is appropriate.
Minuteman Aviation v. Swearingen, 237 Mont. 207,
212 (1989); Bunch v. Lancair Int’l., 2006 Mont. Dist.
LEXIS 469 at *45.2 Where there is no conﬂict of facts,
such as competing afﬁdavits, an evidentiary hearing
on a motion contesting jurisdiction is not necessary.
Bunch at *45-47 Here, Plaintiffs’ Complaint fails to
allege any factual basis for personal jurisdiction over
Philadelphia. Therefore, Plaintiffs’ Complaint should
be dismissed without an evidentiary hearing.

2

Moreover, because the burden of establishing jurisdiction
rests with Plaintiffs, if Plaintiffs do not make a colorable showing
of personal jurisdiction, the court may bar Plaintiffs from even
taking discovery on disputed jurisdictional issues. Bunch at *4547 (denying discovery and granting motion to dismiss for lack of
personal jurisdiction); Wenz v Nat’l Westminster Bank, PLC, 91
P.3d 467, 469 (Colo. App. 2001) (holding jurisdictional discovery
on personal jurisdiction is within the discretion of the trial court
and afﬁrming denial of discovery and granting motion to dismiss).

Resp. 23a
(b). There is No Personal Jurisdiction over
Philadelphia.
The Supreme Court of the United States has repeatedly held that the 14th Amendment requirements
for personal jurisdiction are paramount. Bristol-Myers
Squibb v. Superior Court holds, “In determining
whether personal jurisdiction is present, a court must
consider a variety of interests . . . But the ‘primary concern’ is ‘the burden on the defendant.” 137 S. Ct. 1773,
1780 (2017). Bristol-Myers also holds: “The primary
focus of our personal jurisdiction inquiry is the defendant’s relationship to the forum State.” Id. As explained below, Philadelphia does not have sufﬁcient
connection to Montana for a Montana court to exercise
personal jurisdiction—either general or speciﬁc jurisdiction.
General jurisdiction will exist over a nonresident
corporate defendant only where that corporation’s “afﬁliations with the State are so ‘continuous and systematic’ as to render [it] essentially at home in the forum
State.” Daimler AG v. Bauman, 134 S. Ct. 746 (2014)
(quoting Goodyear Dunlop Tires Operations, S.A. v.
Brown, 131 S. Ct. 2846 (2011)). Courts may exercise
general jurisdiction only when “the continuous corporate operations within a state [are] so substantial and
of such a nature as to justify suit . . . on causes of action
arising from dealings entirely distinct from those activities.” Id. at 761. “The ‘paradigm’ forums in which a
corporate defendant is ‘at home,’ we explained, are the
corporation’s place of incorporation and its principal
place of business.” Tyrrell, 137 S. Ct. at 1558.

Resp. 24a
In Tyrrell, the Supreme Court reversed the Montana Supreme Court’s ﬁnding that a Montana court
could exercise personal jurisdiction over BNSF based
on general jurisdiction. 137 S. Ct. at 1558. Tyrrell held
BNSF, like Philadelphia in this case, was not incorporated in Montana nor did it maintain its principal
place of business in Montana. Id. Tyrrell held BNSF
was not so heavily engaged in activity in Montana as
to render it “essentially at home” in Montana. Id. This
is signiﬁcant given BNSF’s substantial operations in
Montana. BNSF operates over 2,000 miles of railroad
track and had more than 2,000 railroad employees in
Montana. Id.3 Tyrrell holds that general jurisdiction
does not focus solely on the magnitude of a defendant’s
in-state contacts, while observing a corporation that
operates in many places can scarcely be deemed at
home in all of them. Id. (citing Daimler AG, 134 S. Ct.
at 761).
Those principles described in Tyrrell foreclose
general jurisdiction over Philadelphia. Philadelphia is
not a Montana corporation and does not have its principal place of business in Montana. (Compl. ¶9.) Plaintiffs instead allege that Philadelphia was authorized
by Montana to transact business in Montana – an
argument speciﬁcally rejected by the Tyrrell court.
3

Were this matter to proceed to an evidentiary hearing on
the matter of general personal jurisdiction, Philadelphia would
establish it has no ofﬁces and no employees in Montana. Plaintiffs’
Complaint does not allege otherwise. Philadelphia sells insurance
policies to Montana entities, but that too is not sufﬁcient to establish general jurisdiction. Philadelphia is not “at home” in Montana. Tyrrell, 137 S. Ct. at 1558.

Resp. 25a
(Compl. ¶ 14.) The Tyrrell court rejected the Montana
Supreme Court’s determination that personal jurisdiction existed over a railroad company that was “doing
business” and “found within” Montana. 137 S. Ct. at
1559. Rather than attempt to meet this inapplicable
standard, Plaintiffs failed to allege facts in their Complaint that Philadelphia has contacts with Montana
that are so “continuous and systematic” it would be fair
to treat Philadelphia as though it was based or operated in Montana. Plaintiffs’ failure to have done so is
fatal to any claim of general personal jurisdiction.
(c). There Is No Jurisdiction Under Montana’s Long Arm Statute.
M. R. Civ. P. 4(b)(1) provides:
(b) Jurisdiction of Persons.
(1) Subject to Jurisdiction. All persons found
within the state of Montana are subject to the jurisdiction of Montana courts. Additionally, any person is subject to the jurisdiction of Montana courts as to any
claim for relief arising from the doing personally, or
through an employee or agent, of any of the following
acts:
(A)
tana;

the transaction of any business within Mon-

(B) the commission of any act resulting in accrual within Montana of a tort action;

Resp. 26a
(C) the ownership, use, or possession of any property, or of any interest therein, situated within Montana;
(D) contracting to insure any person, property, or
risk located within Montana at the time of contracting;
(E) entering into a contract for services to be rendered or for materials to be furnished in Montana by
such person;
(F) acting as director, manager, trustee, or other
ofﬁcer of a corporation organized under the laws of, or
having its principal place of business within, Montana;
or
(G) acting as personal representative of any estate within Montana.
Philadelphia has no contacts with Montana as described in M. R. Civ. P. 4(b)(1). While Plaintiffs allege
that “the Policy insured risks and persons located in
Montana at the time the Policy issued” (Compl. ¶ 25),
the Policy attached to Plaintiffs’ Complaint makes it
clear that Philadelphia did not contract with “any person, property, or risk located within Montana at the
time of contracting.” Rather, none of the HGI Entities
are insureds under the Policy. (Compl. at Ex. 1, p. 12.)
There is no mention of Montana on the face of the Policy. Id. The Application for the Policy does not include
the revenues of the HGI Entities or identify them
where required on the ﬁrst page. (Id., pp. 46-47.) Thus,
at the time of contracting, Philadelphia did not

Resp. 27a
contemplate any connection with Montana through
the Policy.
Moreover, even if personal jurisdiction exists pursuant to M. R. Civ. P. 4(b)(1) (which it does not), “[the
court] then determine[s] whether exercising personal
jurisdiction comports with traditional notions of fair
play and substantial justice embodied in the Due Process Clause of the Fourteenth Amendment.” Buckles,
388 Mont. at 520. Again, there is no fair play or substantial justice in requiring Philadelphia to litigate
this matter before a Montana court where Montana
contacts do not exist.
Further, Gateway, by making itself subject to Montana’s jurisdiction through its dealings with the HGI
Entities, cannot drag its insurer along. It does not matter that Philadelphia knew that Gateway’s business
involved providing hotel management services to Montana entities. World-Wide Volkswagen Corp. v. Woodson, 444 U.S. 286, 296, 298 (1980) holds:
If foreseeability were the criterion . . . Every
seller of chattels would in effect appoint the
chattel his agent for service of process. His
amenability to suit would travel with the
chattel. . . . It is foreseeable that the purchasers of automobiles sold by World-Wide and
Seaway may take them to Oklahoma. But
the mere ‘unilateral activity of those who
claim some relationship with a nonresident defendant cannot satisfy the requirement of contact with the forum
State.’ (emphasis added).

Resp. 28a
The fact Gateway does business in Montana does not
satisfy the requirement for Montana to exercise personal jurisdiction over Philadelphia with regard to an
Ohio insurance contract.
Likewise, Bristol-Myers holds: “What is needed . . .
is a connection between the forum and the speciﬁc
claims at issue.” 137 S. Ct. at 1781. Bristol-Myers holds
that non-residents of California could not sue a drug
manufacturer in California as part of a nationwide
class action because there was no connection between
plaintiffs and the drug company in California. 137
S. Ct. at 1781-1784. Here, out-of-state Plaintiff Gateway, an Ohio corporation, seeks to drag Philadelphia to
Montana to litigate an insurance coverage dispute that
arose in Ohio. The 14th Amendment principles of due
process do not contemplate that an insurance company
avails itself of personal jurisdiction in every place
where an insured may be sued. Indeed, this fact is evidenced by the Policy which contains a form requiring
insurance coverage disputes between the parties be arbitrated in Ohio. (Compl. at Ex. 1, p. 40.)
(d). There Is No Specific Jurisdiction Based
On Philadelphia’s Contacts With Montana.
Goodyear Dunlop holds, “Speciﬁc jurisdiction . . .
depends on ‘afﬁliation between the forum and the underlying controversy,’ principally, activity or an occurrence that takes place in the forum State, and is
therefore subject to the State’s regulation.” 131 S. Ct.
at 2851. Buckles, 388 Mont. at 520, holds that a court

Resp. 29a
must consider the following factors before ﬁnding speciﬁc personal jurisdiction over a defendant:
(1) The nonresident defendant must do some
act or consummate some transaction with the
forum or perform some act by which he purposefully avails himself of the privilege of conducting activities in the forum, thereby
invoking its laws. (2) The claim must be one
which arises out of or results from the defendant’s forum-related activities. (3) Exercise of
jurisdiction must be reasonable.
The dispositive question, as it pertains to speciﬁc personal jurisdiction . . . is whether a relationship exists ‘among the defendant . . . the
forum, and the litigation . . . ”
Following the U.S. Supreme Court’s direction,
we have previously held: ‘[A] defendant’s relationship with a plaintiff or third party,
standing alone, is an insufficient basis for
jurisdiction . . . In order for a state court to
exercise speciﬁc jurisdiction, the suit must
arise out of or relate to the defendant’s contacts with the forum.’ Id. (emphasis added).
2017 MT 235 at ¶¶16, 20.
There is no connection between Plaintiffs’ declaratory judgment action and Montana which would subject Philadelphia to this Court’s jurisdiction. An Ohio
corporation, Gateway, purchased insurance from a
Pennsylvania corporation, Philadelphia. (Compl. ¶¶ 4,
9.) Plaintiffs’ Complaint does not aver the Policy was
negotiated or executed in Montana, as it was not. The

Resp. 30a
Policy contains no references to Montana.4 To the contrary, the state-speciﬁc materials in the Policy contain
an Ohio amendatory endorsement, written to ensure
that the Policy conforms with Ohio insurance laws
and an Ohio arbitration clause for insurance coverage
disputes. (Compl. at Ex. 1, pp. 40, 44-45.) Thus, the Policy provides no connection between Philadelphia and
Montana.
The only basis Plaintiffs use to connect Philadelphia to Montana are allegations that Gateway was
sued in Montana in underlying wage and hour litigation. (Compl. ¶¶ 33et seq.) Philadelphia was not a party
to that lawsuit and has denied coverage for that claim
– including any duty to defend. (Compl. ¶¶ 46.) The underlying Walter case settled without Philadelphia’s involvement. (Compl. ¶ 49.) Thus, Philadelphia had no
contact with Montana with respect to that lawsuit.
Philadelphia is not subject to speciﬁc jurisdiction
in Montana as to the claims asserted by Plaintiffs in
this action because those claims do not arise out of any
insurance coverage activities by Philadelphia in Montana. Buckles, supra, ¶23 (“defendant’s relationship
with a plaintiff or third party, standing alone, is an
insufﬁcient basis for jurisdiction.”); Bristol-Myers, 137
4

As discussed below, while the Application for the Policy
notes that certain related entities were Montana-based, those related entities (including the HGI Entities) are not Insureds under
the Policy. By way of contrast, the Application also lists related
entities which likely would qualify as subsidiaries under the Policy because Gateway owns 100% of the equity in the entity. None
of those wholly owned entitles is in Montana.

Resp. 31a
S. Ct. at 1782 (“[A] defendant’s relationship with a . . .
third party, standing alone, is an insufﬁcient basis for
jurisdiction.”).5
Thus, an insurance company does not subject itself
to personal jurisdiction merely because its insured, in
this case Gateway, may be subject to (or consent to)
personal jurisdiction. Gateway operates across the
country, which does not make Philadelphia subject to
personal jurisdiction in every place Gateway may do
business. No authority holds that a party may be subject to what would have to be called derivative speciﬁc
personal jurisdiction simply by doing business with a
third party outside of the jurisdiction. To the contrary,
in Bristol-Myers, the Supreme Court found plaintiffs
could not allege a theory of derivative liability to provide California personal jurisdiction over BristolMyers for third party transactions conducted in the
putative forum state. 137 S. Ct. at 1783 (“Nor is it alleged that BMS is derivatively liable for McKesson’s
conduct in California.”). The allegations giving rise to
this dispute are that Philadelphia, a Pennsylvania
company, breached an insurance contract, with Gateway, an Ohio company. Fundamental fairness under
5

Philadelphia notes that it has no connection at all with the
HGI Entities other than the fact that as Plaintiffs they named
Philadelphia as a defendant in this lawsuit. In Buckles, the Montana Supreme Court noted: “[A] court should determine jurisdiction only on the necessary jurisdictional facts and not on the
merits of the case.” 388 Mont. at 525. The HGI Entities can allege
no relationship with Philadelphia, thus they cannot allege facts
to support speciﬁc personal jurisdiction, except derivatively
through Gateway.

Resp. 32a
14th Amendment due process requirements does not
give Montana personal jurisdiction over Philadelphia
to resolve that contract dispute.
B.

The HGI Entities Are Not “Insureds” Under
the Policy.

The Policy contains a clear deﬁnition of who constitutes an “Insured". Section II., DEFINITIONS, Item
Q., provides:
Q. You, your insured means:
1.

The named entity.

2.

Any subsidiary.

3.

Any independent contractor while
acting on your behalf but solely as respects the provision of professional
services.

4.

Any individual insured.

(Compl. at Ex. 1, p. 29.) None of the HGI Entities are
an “Insured”.
1. None of the HGI Entities is the “Named
Entity.”
Under Item H., “Named Entity means the proprietor, ﬁrm or organization speciﬁed in Item 1. of the
Declarations.” (Id., pp. 12, 28.) Under Item G. of the
Policy, “Individual Insured” is deﬁned in the Policy and
it does not remotely include the HGI entities. (Id., pp.
27-28.) Rather, the only Named Entity in Item 1. of the

Resp. 33a
Declarations is “Gateway Hospitality Group, Inc.”Id.,
p. 12.
2. None of the HGI Entities is a “Subsidiary.”
Plaintiffs’ Complaint alleges that three of the HGI
Entities are an insured under the Policy “[a]s a Gateway subsidiary.”6 (Compl. ¶¶ 20-21.) This allegation is
belied by the clear language of the Policy.7 Item N.,
deﬁnes Subsidiary. (Id., pp. 28-29.) None of the HGI
Entities meet the definition of a Subsidiary under
the Policy. The Application materials show that none
of the HGI Entities could qualify as a Subsidiary
through ownership. (E.g., HGI Missoula – 36.13%
owned by Gateway; HGI Kalispell – 33.33% owned by
Gateway; HGI Bozeman – no ownership by Gateway;
HGI Billings – 8.43% owned by Gateway) (Id., p. 53.)
Moreover, there are no allegations that Gateway has
the right to elect, appoint or designate more than 50%
of any of the HGI Entities’ board of directors, trustees,
or managers as is set forth in the Application or that
Gateway serves as the general partner. As the HGI
Entities cannot fall within the Policy's deﬁnition of

6

Plaintiffs no longer assert that HGI Bozeman is a subsidiary of Gateway, despite having asserted so in its draft First
Amended Complaint.
7
This assertion is also in stark contradiction to the corporate
disclosure statements ﬁled by the HGI Entities in the now dismissed federal court litigation, of which Philadelphia requests
that this Court take judicial notice. (Ex. A.) The disclosures admit
the HGI Entities do not have a parent corporation. Id.

Resp. 34a
Subsidiary, they cannot now claim to be Insureds, as a
Subsidiary, under the Policy.
Realizing that none of the HGI Entities qualiﬁes
as a Subsidiary under the clear terms of the Policy,
Plaintiffs are reduced to making a series of arguments
to the contrary, all of which fail. First, Plaintiffs state
that “[t]he word subsidiary in the Policy is subject to
two different interpretations.” (Compl. at ¶39.) But
Plaintiffs do not attempt to articulate either: (1) what
those differing interpretations might be or (2) how the
HGI Entities would qualify as a Subsidiary under
any reasonable interpretation of that defined term.
This is not a surprise, since there is no way a reasonable insurance consumer, let alone a sophisticated commercial entity like Gateway, would read the Policy’s
deﬁnition of Subsidiary and conclude that the HGI Entities qualify as Insureds. See, e.g., Westchester Surplus
Lines Ins. Co. v. Keller Transportation, Inc., 2016 MT 6,
¶16, 382 Mont. 72, 365 P.3d 465 (“The terms in an insurance contract are to be interpreted according to
their common sense meaning, viewed from the perspective of a reasonable insurance consumer”). As
noted above, the only common sense interpretation of
the deﬁnition of Subsidiary leads to a simple conclusion: the HGI Entities are not Insureds.
Plaintiffs also confuse matters by stating that
“Gateway’s subsidiaries are listed” in the Policy’s Application. (Compl. at ¶ 38.) But this is not sufﬁcient.
The Policy specifically defines Subsidiary. Even
though the HGI Entities were listed in the Policy’s

Resp. 35a
Application, they still do not qualify as Subsidiaries
under the Policy’s deﬁnition of same.
Worth noting is that Gateway, when it completed
the Policy’s Application, chose not to include the revenue from the HGI Entities in the Policy’s Application,
which noted that 82% of revenue came from “management fees”, with the remainder coming from “revenue
management[,]” “accounting fee / service fee[,]” and
“development fee / technical service fee[.]”(Id. at 47.)
This is not a surprise – there is ample reason why
Gateway would have wanted to secure coverage for itself under a hotel management professional liability
policy as an entity that provides hotel management
services, as opposed to the HGI Entities which were
hotels themselves.
3. None of the HGI Entities is an “Individual Insured.”
In the Policy, under Item G., “Individual Insured”
is deﬁned. (Ex. A, pp. 27-28) Even a cursory review of
the deﬁnition of “Individual Insured” from the Policy
establishes that none of the HGI Entities qualiﬁes as
such.
4. The HGI Entities are not Independent
Contractors of Gateway.
The Complaint does not allege the HGI Entities
are independent contractors of Gateway. The Complaint alleges Gateway provides hotel management

Resp. 36a
services to the HGI Entities. (Compl. ¶¶ 4, 17.) The
HGI Entities are not independent contractors for Gateway. Since none of the HGI Entities is an Insured under the Policy they should be dismissed from the action
under Rule 12(b)(6) for failing to state a claim against
Philadelphia.
5. Plaintiffs Fail to Allege that HGI Bozeman
is an Insured.
While Plaintiffs attempt to allege that the other
HGI Entities are each a Subsidiary (though that attempt is contradicted by the Policy, as discussed
above), there is no attempt to allege that HGI Bozeman
is a Subsidiary or otherwise an Insured under the
Policy. HGI Bozeman should be dismissed.
6. The Sedgwick Letter is Immaterial
The Complaint alleges that in a May 29, 2015 letter to Gateway a representative of Philadelphia
“stated that Gateway, HGI Missoula, HGI Kalispell,
HGI Bozeman and HGI Billings were insureds under
the Policy.” (Compl. ¶ 46.A.) While this statement was
incorrect, it was a [sic] made without any analysis of
the issue and was not part of the letter’s main thrust:
that there was no coverage for the Walter class action
because of the various terms, conditions and exclusions
contained in the Policy and discussed therein. Moreover, the statement did not and cannot amend the
Policy, which clearly states that “[n]otwithstanding
anything to the contrary, no provision of this policy

Resp. 37a
may be amended, waived or otherwise changed except
by endorsement issued by us to form part of this policy.” (Compl. at Ex. 1, p. 33.)
Nor can Plaintiffs assert a theory of estoppel, as
they do not (and cannot) claim that they were prejudiced by this statement. It is a long-settled proposition
of Montana law that where an insurer “has denied
coverage from the outset, there is no prejudice. Without prejudice, there is no ground for estoppel.” Haskins
Constr., Inc. v. Mid-Continent Cas. Co., 2013 WL
5325734, *5 (citing Portal Pipeline Co. v. Stonewall Ins.
Co., 256 Mont. 211, 845 P.2d 746 (Mont. 1003 [sic]));
Parker v. Safeco Ins. Co. of America, 2016 MT 173, ¶30,
384 Mont 125, 376 P.3d 114.
C.

Pursuant to Forum Non Conveniens, Dismissal or, in the alternative, Transfer is required.

Missoula County is not the proper forum for this
lawsuit. Forum non conveniens is codiﬁed at M.C.A.
§ 25-2-201(2) and (3). San Diego Gas & Elec. Co. v Gilbert, 2014 MT 191, ¶24, 375 Mont. 517, 329 P.3d 1264;
Harrington v Energy West, Inc., 2017 MT 141, ¶ 22, 387
Mont. 497, 396 P.3d 114. Montana’s venue statute requires changing the place of venue when “the convenience of witnesses and the ends of justice could be
promoted by the change.” M.C.A. § 25-2-201(3). Either
Ohio or Pennsylvania, not Montana, would be the appropriate forum for this lawsuit. This is because: (a)
Gateway is an Ohio corporation; (b) Philadelphia is a

Resp. 38a
Pennsylvania corporation; (c) the Policy was negotiated and executed in both Ohio and Philadelphia; (d)
the insured under the Policy is Gateway, an Ohio corporation; and (e) the four HGI Entities, are not “additional insureds” under the Policy.
Federal courts consider factors that are consistent
with those set forth in M.C.A. § 25-2-201(3) when deciding whether dismissal of an action based on forum
non conveniens is appropriate. Speciﬁcally, the Ninth
Circuit Court of Appeals has identiﬁed four private
and ﬁve public factors to be considered:
Private factors include “(1) relative ease of access to sources of proof; (2) the availability of
compulsory process for attendance of hostile
witnesses, and cost of obtaining attendance of
willing witnesses; (3) possibility of viewing
subject premises; (4) all other factors that
render trial of the case expeditious and inexpensive.” Public interest factors include “(1)
administrative difﬁculties ﬂowing from court
congestion; (2) imposition of jury duty on the
people of a community that has no relation to
the litigation; (3) local interest in having localized controversies decided at home; (4) the interest in having a diversity case tried in a
forum familiar with the law that governs the
action; (5) the avoidance of unnecessary problems in conﬂicts of law.”
Loya v. Stanwood Hotels & Resorts Worldwide, Inc.,
583 F.3d 656, 664 (9th Cir. 2009) (internal citations
omitted).

Resp. 39a
Analyzing the private factors, three favor this case
being litigated in either Ohio or Pennsylvania and one
is neutral. Those factors are: (1) the proofs relating to
the Policy all exist in Ohio or Pennsylvania – where the
parties are located and where the contract was negotiated – not Montana; (2) compulsory process will exist
as to Ohio or Pennsylvania witnesses in those respective states – not in Montana; (3) no subject premises
need to be viewed; and (4) all factors relevant to trying
this case inexpensively, favor Ohio or Pennsylvania.
Analyzing the public factors, two are neutral and three
favor litigation in either Ohio or Pennsylvania. This is
because: (1) there are no serious concerns regarding
court congestion in Ohio, Pennsylvania, or Montana;
(2) it would be an undue imposition on Montana courts
and jurors to decide a case having no connection to
Montana; (3) the local interest favors its being tried in
Ohio or Pennsylvania; (4) the interest in having a case
tried in a forum familiar with the law favors this dispute being tried in Ohio given Ohio courts’ familiarity
with Ohio law, and Ohio law speciﬁcally applies to the
Policy; and (5) there are no concerns regarding conﬂicts
of law.
While the underlying Walter class action was ﬁled
in Missoula it makes no material difference in this contract action, given: (a) the Policy applies only to Gateway, not the HGI Entities; and (b) Philadelphia never
had a duty to defend (or indemnify) the Walters [sic]
class action in Missoula County or anywhere else.
Since the HGI Entities should be dismissed from this

Resp. 40a
case, the two remaining parties to the Policy have no
connection to Montana.
The Policy was not negotiated or executed in Montana. As the only Insured is Gateway, an Ohio entity,
Missoula County is not the appropriate forum. The
evidence and witnesses are not located in Montana.
Litigating here would place an inappropriate burden
on the County’s citizenry and judicial resources.
III. CONCLUSION AND RELIEF SOUGHT
For all of the foregoing reasons, Philadelphia respectfully requests that this Court enter an Order dismissing Plaintiffs’ First Amended Complaint.
DATED this 20th day of February

, 2019.

MARRA, EVENSON & LEVINE, P.C.
2 Railroad Square, Suite C
P.O. Box 1525
Great Falls, MT 59405
By /s/ Thomas A. Marra
Thomas A. Marra, Attorneys for
Philadelphia Indemnity
Insurance Company

CERTIFICATE OF MAILING
I hereby certify that a copy of the foregoing PHILADELPHIA INDEMNITY INSURANCE COMPANY’S
BRIEF IN SUPPORT OF MOTION TO DISMISS

Resp. 41a
PLAINTIFFS’ FIRST AMENDED COMPLAINT OR,
IN THE ALTERNATIVE, TO TRANSFER BASED
UPON FORUM NON CONVENIENS was mailed on
the 20th day of February, 2019, at Great Falls, Montana, postage prepaid, and directed to the following:
Dale R. Cockrell
Jay T. Johnson
P.O. Box 7370
Kalispell, MT 59904-0370
Telephone: (406) 751-6000
Facsimile: (406) 756-6522
Email: dcockrell@mcgalaw.com
jjohnson@mcgalaw.com
Attorneys for Plaintiffs Gateway Hospitality Grow, [sic]
Inc.; Western Hospitality Group, LP d/b/a Hilton
Garden Inn Missoula; and Kalispell Hotel, LLC
d/b/a Hilton Garden Inn Kalispell
JORY C. RUGGIERO, ESQ.
DOMENIC A. COSSI, ESQ.
Mindenhall, Suite 1
Bozeman, Montana 59715
(406) 587-1900
Attorneys for the Plaintiffs Bozeman Lodging
Investors, LLC d/b/a Hilton Garden Inn Bozeman
and JWT Hospitality Group, LLC d/b/a Hilton
Garden Inn Billings
/s/ Brenda L. McGee
Brenda L. McGee

Resp. 42a
CERTIFICATE OF SERVICE
I, Thomas Anthony Marra, hereby certify that I have
served true and accurate copies of the foregoing Answer/Brief – Brief In Support of Motion to the following
on 02-20-2019:
Dale R. Cockrell (Attorney)
145 Commons Loop, Suite 200
P.O. Box 7370
Kalispell MT 59904
Representing: Gateway Hospitality Group Inc,
Western Hospitality Group LP, Kalispell Hotel LLC
Service Method: eService
Jay Tyler Johnson (Attorney)
145 Commons Loop, Suite 200
Kalispell MT 59901
Representing: Gateway Hospitality Group Inc,
Western Hospitality Group LP, Kalispell Hotel LLC
Service Method: eService
Jory C. Ruggiero (Attorney)
303 W. Mendenhall, Ste. 1
Bozeman MT 59715
Representing: Bozeman Lodging Investors LLC,
JWT Hospitality Group Billings LLC
Service Method: eService
Domenic Cossi (Attorney)
303 W. Mendenhall, Ste. 1
Bozeman MT 59715
Representing: Bozeman Lodging Investors LLC,
JWT Hospitality Group Billings LLC
Service Method: eService

Resp. 43a
Electronically signed by Brenda McGee on behalf of
Thomas Anthony Marra
Dated: 02-20-2019

